 DOE/IG-0555




                                CLOSURE OF THE FERNALD
                              ENVIRONMENTAL MANAGEMENT
          AUDIT                        PROJECT
         REPORT




                                       JUNE 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                               June 5, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                        Gregory H. Friedman (Signed)
                             Inspector General

SUBJECT:                     INFORMATION: Audit Report on "Closure of the Fernald
                             Environmental Management Project"


BACKGROUND

From 1954 through 1989, the mission of the Department of Energy's Fernald
Environmental Management Project (FEMP) was the production of high-purity uranium
metals for use in the Department's nuclear weapons program. The Department suspended
all production operations at the site in 1989 and, in 1991, it formally ended the site's
production mission. The first environmental restoration contract at the FEMP was
awarded to the Fernald Environmental Restoration Management Corporation, now known
as Fluor Fernald, Inc. (Fluor), in 1992. From December of that year through November
2000, Fluor managed the site's cleanup activities, and in November 2000, was awarded
the FEMP's closure contract.

To focus attention on site closure activities, Congress established the Defense Facilities
Closure Projects account. For accelerated clean-up sites such as FEMP, which are funded
through this account, Congress requires that the Department request adequate funding to
keep cleanup projects on schedule for closure in Fiscal Year (FY) 2006 or earlier.
Congress intends for any savings resulting from early closure of the FEMP to be retained
and used for cleanup activities at other Department sites. Through December 2001, the
Department spent about $2.8 billion at the FEMP, and Fluor estimates that it will need an
additional $1.7 billion to achieve site closure.

The objective of this audit was to determine whether the FEMP was on schedule to
achieve cleanup and closure in FY 2006.

RESULTS OF AUDIT

As of December 2001, only about 35 percent of cleanup activities required to
achieve site closure had been completed, and Fluor's newest baseline estimate
was that site closure would not be achieved until December 2009. Our audit
disclosed that the Department did not seek an adequate funding level to
ensure closure in 2006, nor had the Department and Fluor inserted necessary
requirements in the relevant contractual instrument to effectuate a 2006
closure. Any delays in site closure have an obvious impact on the safety and
                                                   -2-


health risks at FEMP. Further, the Department could incur about $152 million in
additional infrastructure support costs at the site if closure is completed in 2009 rather
than 2006 as planned. We recommended that the Department align its funding requests
and seek to modify the Fluor contract, as appropriate, to achieve site closure in 2006.

During the audit, Fluor presented the Department with a plan to achieve site closure in December
2006. However, this plan is not complete in that it does not include all of the funding or work that is
necessary to achieve site closure as intended by Congress. Further, Fluor has not yet developed a
detailed project baseline to support its plan.

In addition to FEMP, my office has recently reviewed the remediation and closure activities at the
Department's Miamisburg and Ashtabula Environmental Management Projects. Like FEMP, the
Department was not on schedule to close these sites by the expected closure dates. Our findings were
consistent with conclusions reached by the "Top-to-Bottom" Review Team which you chartered and
which recently issued its report on A Review of the Environmental Management Program. For
FEMP, the review team noted that the current baseline for site closure is beyond 2006 and suggested
that the Department focus on accelerating that timeframe.

MANAGEMENT REACTION

The Assistant Secretary for Environmental Management agreed with all of the recommendations
except our suggestion that the Fluor contract be modified to require site closure in FY 2006. The
Assistant Secretary stated that the Department has every intent to put an acquisition mechanism in
place that is focused on 2006 once an evaluation of the contract is completed. We consider these
comments responsive to the intent of the recommendation.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Ohio Field Office
CLOSURE OF THE FERNALD ENVIRONMENTAL
MANAGEMENT PROJECT

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 2


               Site Closure Is Not on Schedule

               Details of Finding ....................................................................... 3

               Recommendations and Comments ........................................... 7


               Appendices

               Scope and Methodology ............................................................. 9

               FEMP Closure Schedule .......................................................... 11

               Management Comments .......................................................... 12
OVERVIEW

INTRODUCTION AND   The Fernald Environmental Management Project (FEMP) is a
OBJECTIVE          Government-owned, contractor-operated facility located on about 1,050
                   acres near Ross, Ohio. From 1954 through 1989, the mission of the site
                   was the production of high-purity uranium metals for use in the
                   Department of Energy's (Department) nuclear weapons program. In
                   1989, the Department suspended all production operations at the site to
                   focus on environmental, safety and health, and compliance issues, and
                   formally ended the site's production mission in 1991. One year later,
                   the Department awarded the first environmental restoration contract to
                   the Fernald Environmental Restoration Management Corporation, now
                   known as Fluor Fernald, Inc. (Fluor). Fluor managed the site's cleanup
                   activities from December 1992 through November 2000, and was
                   awarded the FEMP closure contract in November 2000.

                   To facilitate site closure, Congress provided funding to the Department
                   for the accelerated cleanup and closure of the FEMP. For accelerated
                   closure sites such as the FEMP, Congress required that the Department
                   request adequate funding to keep the project on schedule for closure in
                   Fiscal Year (FY) 2006 or earlier. Congress intended for any savings
                   resulting from early closure of the FEMP to be retained and used for
                   cleanup activities at other Department sites. From 1992 through
                   December 2001, the Department spent about $2.8 billion at the FEMP,
                   and Fluor estimates that it will need an additional $1.7 billion to
                   achieve site closure.

                   The Office of Inspector General (OIG) and the General Accounting
                   Office (GAO) have previously reported concerns with the Department's
                   defense facility site closure projects. In our January 2002 report on
                   Remediation and Closure of the Ashtabula Environmental Management
                   Project (DOE/IG-0541), we concluded that the project was not on
                   schedule and might not be completed until 2012 because the
                   Department did not fully fund the project and oversee the contractor's
                   progress to ensure timely completion and compliance with contract
                   terms. Also, in May 2001, in our report on Remediation and Closure of
                   the Miamisburg Environmental Management Project (DOE/IG-0501),
                   we concluded that the project will not be closed on schedule because
                   the Department and its contractor committed to a completion date
                   without knowing whether the date was achievable, and did not develop
                   a valid baseline to effectively manage the project. Finally, in February
                   2001, GAO reported, in GAO-01-284, Progress Made at Rocky Flats,
                   but Closure by 2006 Is Unlikely, and Costs May Increase, that the
                   Department faces a number of technical challenges and is unlikely



Page 1                                                        Introduction and Objective
                  meet the December 2006 target site closure date for Rocky Flats.
                  Additionally, the Department's site closure contractor estimated that it
                  only had about a 15 percent probability of completing the project in
                  2006.

                  The objective of this audit was to determine whether the FEMP was on
                  schedule to achieve cleanup and closure in FY 2006.

                  Information developed during the audit indicated that cleanup and
CONCLUSIONS AND
                  closure of the FEMP was not on schedule to be completed in FY 2006,
OBSERVATIONS
                  as expected by Congress. In fact, Fluor's new baseline estimated that
                  site closure will not be achieved until December 2009. The project was
                  behind schedule because the Department did not develop a contractual
                  requirement or seek an adequate level of funding to ensure closure in
                  2006. As a result, site workers and the public could be exposed to
                  continued safety and health risks and the Department could incur about
                  $152 million in additional infrastructure support costs at the site.

                  During the audit, Fluor presented the Department with a plan to achieve
                  site closure in December 2006; however, this plan does not include all of
                  the funding or work that is necessary to achieve site closure as intended
                  by Congress. Further, Fluor has not yet developed a detailed project
                  baseline to support its plan. In fact, Fluor is not contractually required to
                  achieve closure before December 2010.

                  This audit identified issues that management should consider when
                  preparing its year-end assurance memorandum on internal controls.




                                                               (Signed)
                                                         Office of Inspector General




Page 2                                                     Conclusions and Observations
SITE CLOSURE IS NOT ON SCHEDULE

Congress Expects    Congress established the Defense Facilities Closure Projects account
Closure In 2006     (Closure Account) in 1997 to help focus management attention on
                    cleanup activities at selected Departmental sites. Congress expected the
                    Department to find ways to accelerate cleanup activities at the sites and
                    ensure that site closure was achieved by the end of FY 2006. Also,
                    Congress required the Department to seek the resources necessary to
                    keep these projects on schedule for closure in 2006 or earlier. In fact,
                    during development of the Department's FY 2002 budget, the House
                    Committee on Appropriations made the following comments regarding
                    Closure Account sites located within the State of Ohio:

                           "If during fiscal year 2002, it appears that any of these
                           projects will not meet the 2006 closure date, the
                           Department is to notify the Committee immediately,
                           reduce site funding to the minimum necessary to
                           maintain safe surveillance and maintenance conditions,
                           and submit a reprogramming to remove the site from the
                           Defense Facilities Closure Project account."

                    The Senate Committee on Appropriations made similar comments
                    regarding sites in the Closure Account:

                           "Once it becomes clear that a closure deadline cannot
                           be met prior to 2006, the Department should propose
                           moving the project into the post-2006 account. Such a
                           move would ensure adequate attention and resources for
                           the projects that remain in the closure account."

                    In summary, Congress intended for the Department to achieve closure
                    of the FEMP before the end of FY 2006, or initiate action to remove the
                    site from the Closure Account before the end of this fiscal year.

Closure Schedule    The Department was not on schedule to achieve closure of the FEMP
                    by the end of FY 2006. In December 2001, ten years after the site's
                    production mission ended, Fluor estimated that about 35 percent of the
                    cleanup needed to achieve site closure had been completed. According
                    to the most recently validated project baseline, site closure will not be
                    achieved until December 2009. Although the Department does not
                    have a validated baseline plan for completing cleanup and restoration
                    work in 2006, it has not removed the site from the Closure Account.

                    The Department considered moving the FEMP from the Closure
                    Account in May 2000, during development of the FY 2002
                    Environmental Management Budget. The FEMP closure schedule in

Page 3                                                                    Details of Finding
                           effect at that time projected that site closure would not be achieved
                           until September 30, 2010, or four years beyond the date Congress
                           expects the work to be finished. The Ohio Field Office considered,
                           but rejected, removing the FEMP from the Closure Account.

                           In December 2001, Fluor presented the Department with a plan for
                           achieving site closure in 2006. Depending on the amount of waste to
                           be removed from the site's waste pits and the timing of future
                           workforce reductions, Fluor estimated it would need between
                           $1.6 billion and $1.7 billion to complete site cleanup. However,
                           Fluor's new plan did not include all of the work or funding that was
                           necessary to achieve site closure by the end of FY 2006. Fluor
                           estimated it would need at least an additional $25 million to
                           $31 million in funding during FY 2007 to complete tasks like
                           removing railroad tracks, cleaning up the rail yard, and disposing of
                           the silo waste treatment facility. Fluor projected that these activities
                           would not be completed until March 2007. Also, Fluor has not yet
                           developed a detailed project baseline that supports its proposal.

Contractual Requirements   The FEMP closure project was behind schedule because the
and Project Funding        Department did not establish contractual requirements or seek the
                           funding necessary to ensure that the 2006 closure deadline would be
                           achieved.

                                                 Contractual Requirements

                           After the Secretary of Energy designated the FEMP as a closure site
                           in 1997, the Department failed to modify its existing contract with
                           Fluor to place additional emphasis on the 2006 closure date. Also, in
                           November 2000, the Department awarded a new closure contract to
                           Fluor; however, the contract did not require Fluor to:

                              • achieve site closure in 2006;
                              • perform site cleanup activities in accordance with its response
                                to the Department's request for proposals; and,
                              • prepare a baseline to achieve closure in 2006.




Page 4                                                                         Details of Finding
         The Department's contract with Fluor did not require closure in
         2006. In fact, the contract's 2010 target closure date was four years
         beyond the date Fluor believed it could achieve closure when it
         responded to the Department's request for proposals. The
         Department's request for proposals required that bidders develop
         their responses using a baseline that allowed for increased levels of
         funding. Under that scenario, Fluor believed it could achieve site
         closure in 2006 and reduce the overall cost of the project by
         $400 million. However, the Department did not include this scenario
         in its contract.

         Also, after awarding the FEMP closure contract, the Department did
         not require Fluor to prepare a baseline to achieve closure in 2006.
         Rather, the Department required Fluor to develop a baseline
         premised on a flat funding profile of $290 million per year. This
         baseline estimated that some site cleanup activities would be
         completed in 2006, while the completion of others are delayed until
         December 2009. Appendix 2 contains a copy of the FEMP closure
         schedule developed by Fluor for the new contract.

         While the Department did not contractually require Fluor to achieve
         closure in 2006, the Department believed that the monetary
         incentives contained in the FEMP closure contract would accelerate
         the 2010 target closure date. However, the structure of the contract
         incentives indicate that the Department was more focused on
         controlling total project costs and the completion of certain cleanup
         tasks, rather than on achieving overall closure of the site in FY 2006.
         For example, only $53 million in incentive fees were available for
         accelerating tasks associated with the Department's 2010 target
         closure date. However, Fluor could earn up to $235 million in
         incentive fees for controlling total project costs. In fact, Fluor could,
         conceivably, earn the majority of available incentive fees – both for
         task acceleration and for cost control – and still not close the site
         until beyond 2006.

                                     Project Funding

         Contrary to Congressional guidance, the Department did not seek
         adequate funds to keep the site on schedule for closure in 2006.
         Since the Department did not have a validated baseline for closing
         the site in 2006, it could not determine and did not request adequate
         funding to meet a 2006 closure schedule.



Page 5                                                        Details of Finding
                           Furthermore, for FYs 2001 and 2002, the Department's
                           Congressional Budget Request was not consistent with the level of
                           funding requested by the Ohio Field Office. Specifically, the Ohio
                           Field Office submitted a budget request to Department Headquarters
                           of $313.8 million and $324.3 million in FY 2001 and FY 2002,
                           respectively, for the FEMP closure activities. However, the
                           Department's request to Congress included only $290 million per
                           year for the FEMP closure project. Due to concerns with the
                           Department's progress in meeting the 2006 closure deadline,
                           Congress provided the Department with a supplemental
                           appropriation of $20 million in FY 2001 and $10 million in
                           FY 2002. Despite the additional funding from Congress, the FEMP
                           is still behind schedule to achieve site closure in 2006.

Health and Safety Risks,   If FEMP remained open past 2006, site workers and the public
Additional Costs, and      would continue to be exposed to safety and health risks; the
Scarce Resources           Department would incur about $152 million in additional costs at the
                           site; and scarce resources would not be available for the long-term
                           cleanup of the Department's more complex sites around the country.

                           The current site closure baseline plan indicated that the soil
                           characterization and excavation, on-site disposal facility, aquifer
                           restoration, and silos projects would not be completed by the date
                           expected by Congress. Specific examples of the types of risks
                           associated with delaying these projects include migration of uranium
                           contaminated groundwater and radiation uptake from exposure to
                           thorium, radium, and radon.

                           Additionally, the Department would incur about $152 million in
                           additional costs if site closure was delayed until December 2009.
                           These additional costs result from the need to continue supporting
                           the FEMP infrastructure until the closure date contained in the
                           current closure baseline was reached. Specific examples of
                           infrastructure support costs include site security, utilities, Fluor
                           management and administrative functions, and Departmental
                           oversight activities.




Page 6                                                                        Details of Finding
                  Further, the Department incurred substantial costs to develop and
                  validate a project baseline that did not support achieving site closure
                  in 2006. Fluor estimated that it spent nearly $1.5 million over 6
                  months developing the current baseline premised on a flat funding
                  profile. Additionally, the Department spent about $530,000
                  reviewing and validating a baseline, which projected that site closure
                  would not be achieved until December 2009.

                  Finally, failure to achieve site closure in 2006 would result in scarce
                  resources not being made available for the long-term cleanup of the
                  Department's more complex sites around the country. The
                  Department's 1997 Closure Management Plan recognized that
                  achieving the 2006 closure date at the FEMP would require an
                  aggressive schedule and would result in substantial savings. The
                  Department planned to devote those savings to cleanup efforts at
                  locations like the Hanford Site in Washington, and the Savannah
                  River Site in South Carolina. At these two sites, the Department has
                  about 91 million gallons of high-level radioactive waste that needs to
                  be treated and disposed.

RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:

                     1. Ensure that project completion dates and funding requests are
                        based on current and complete project baselines;

                     2. Request adequate funding to achieve site closure in FY 2006
                        as required by Congress; and,

                     3. Notify the Secretary of Energy and Congress if the FY 2006
                        closure deadline cannot be achieved.

                  We recommend that the Manager, Ohio Field Office:

                     1. Modify the Fluor contract to require site closure in FY 2006;
                        and,

                     2. Require Fluor to develop a project baseline that supports
                        achieving the FY 2006 site closure deadline as soon as
                        possible.

                  Management agreed with all of the recommendations except
                  modifying the Fluor contract to require site closure in FY 2006.


Page 7                                           Recommendations and Comments
MANAGEMENT         Management stated that the Department has every intent to put an
REACTION           acquisition mechanism in place that is focused on 2006 once an
                   evaluation of the contract is completed. However, at the conclusion of
                   our review, management had not determined whether simply modifying
                   the Fluor contract was the most effective means of achieving closure by
                   2006. Management's comments are attached in their entirety as
                   Appendix 3.

AUDITOR COMMENTS   Although management did not concur with the recommendation to
                   modify the contract to require closure by FY 2006, we consider the
                   comments responsive to the intent of the recommendation.




Page 8                                              Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from September 2001 through February 2002
              at the Fernald Environmental Management Project (FEMP) near Ross,
              Ohio; the Ohio Field Office in Miamisburg, Ohio; and the Office of
              Environmental Management in Germantown, Maryland. The scope of
              the audit included site remediation, closure activities, and costs incurred
              by the Department from FY 1992 through December 2001 at the
              FEMP.

              To accomplish the audit objective, we:
METHODOLOGY
                 •   Reviewed Congressional requirements for Defense Facilities
                     Closure Projects account sites;

                 •   Analyzed the Department's FY 2002 Congressional budget
                     request and Congressional committee reports related to the
                     development of the Department's FY 2002 budget;

                 •   Analyzed the Department's current FEMP site closure baseline;

                 •   Assessed the terms of the Department's request for proposals for
                     the FEMP closure contract, Fluor's contract proposal, and the
                     contract awarded by the Department;

                 •   Calculated the cost of infrastructure support activities that will
                     be incurred if site closure is not achieved until December 2009;
                     and,

                 •   Interviewed Department and contractor officials at
                     Headquarters, the Ohio Field Office, and the Fernald
                     Environmental Management Project.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls related to the Department's
              management of the FEMP. Because our review was limited, it would
              not necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not assess the reliability
              of computer processed data because only a limited amount of computer
              processed data was used during the audit.




Page 9                                                       Scope and Methodology
          Finally, we assessed the Department's compliance with the Government
          Performance and Results Act of 1993. The Department's Annual
          Performance Plan for FYs 1999 through 2002 contained performance
          measures based on disposing of specific waste volumes and waste
          streams from its sites.

          We held an exit conference with the Office of Environmental
          Management and the Ohio Field Office on May 23, 2002.




Page 10                                              Scope and Methodology
Appendix 2

             FEMP Closure Schedule




Page 11                              FEMP Closure Schedule
Appendix 3




Page 12      Management Comments
                                                                              IG Report No.: DOE/IG-0555

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
